                                    SOCIAL SECURITY
MEMORANDUM

Date:   May 17, 2012                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration's Software Modernization and Use of Common
        Business Oriented Language (A-14-11-11132)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration has a strategic plan to convert its
        legacy application programs to a more modernized programming language. We define
        a strategic plan as a documented plan or roadmap that explains how the Agency’s
        information technology modernization efforts will include a conversion from its legacy
        application programs to a more modernized programming language.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                 Patrick P. O’Carroll, Jr.
        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



THE SOCIAL SECURITY ADMINISTRATION’S
 SOFTWARE MODERNIZATION AND USE OF
COMMON BUSINESS ORIENTED LANGUAGE


    May 2012         A-14-11-11132




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                       Executive Summary
OBJECTIVE
The objective of our audit was to determine whether the Social Security Administration
(SSA) has a strategic plan to convert its legacy application programs to a more
modernized programming language. We define a strategic plan as a document that
explains how the Agency’s information technology (IT) modernization efforts will include
a conversion from its legacy application programs to a more modernized programming
language.

BACKGROUND
The need for long-term IT planning has been a major concern for SSA for many years.
In 1982, SSA announced its Systems Modernization Plan (SMP)1 to restructure and
extensively upgrade its data-handling systems. The Agency told Congress that, without
this major upgrade, there might be a serious disruption of its services, which are
essential to the welfare of millions of Americans.

SSA’s IT environment includes hundreds of applications and an array of technologies.
While the Agency has increased its use of more modern programming languages in its
applications, it relies on legacy applications programmed with Common Business
Oriented Language (COBOL) to process its core workloads, such as retirement and
disability claims. As of June 2010, SSA had over 60 million lines of COBOL code.

In April 2009, the Social Security Advisory Board (SSAB) stated that the Agency should
develop a comprehensive systems modernization plan and a strategic vision beyond
2020.2 A March 2011 SSAB report stated that transforming the Agency’s current
systems infrastructure into a modern technology platform required a more aggressive
and strategic systems modernization plan.3 The report also stated that the lack of a
longer range vision results in planning that is piecemeal, crisis directed, and ultimately
more costly.4 Furthermore, the Future Systems Technology Advisory Panel
recommended that SSA consider developing a comprehensive Agency-wide strategic
systems development roadmap, including a high-level view of a realistic future state and
a plan to achieve this vision.5


1
  In 1982, SSA announced a 5-year plan to modernize its information systems. The SMP was a
multimillion-dollar response to serious problems that had developed during the 1970s and that repeatedly
threatened to disrupt SSA’s service delivery operations.
2
    SSAB, Bridging the Gap: Improving SSA’s Public Service Through Technology, April 2009.
3
    SSAB, A Vision of the Future for the Social Security Administration, March 2011.
4
    Id.
5
    Future Systems Technology Advisory Panel, Legacy Systems Conversion Report, May 2010.

SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                          i
RESULTS OF REVIEW
Our review determined that SSA does not have a strategic plan to convert its legacy
COBOL application programs to a more modernized programming language.
Nonetheless, the Agency has developed an approach to gradually reduce its reliance on
COBOL for its core processing of program transactions, such as retirement and
disability claims. Although there is no specific Federal requirement for agencies to
modernize their legacy applications, there is Federal guidance that requires that
agencies include IT modernization as part of their enterprise architecture process.

While the Agency has moved forward in modernizing its IT environment,6 several factors
limit the Agency’s ability to operate efficiently and improve service delivery. At a
minimum, SSA should address the following factors in its modernization roadmap:
(1) projected future service delivery demands; (2) growth of IT and maintenance costs;
(3) loss of institutional legacy programming knowledge; (4) lack of integrated business
processes; and (5) outdated user interfaces. Although these factors are not unique to
COBOL, SSA relies on COBOL applications to deliver its core services. Therefore, the
Agency’s use of COBOL impacts its current system environment and its system
modernization path.

We note that Agency management expressed concerns about the emphasis of COBOL
in the body of this report and the lack of emphasis on COBOL in the conclusion and
recommendations. We acknowledge the concerns we raise are not unique to COBOL,
but addressing these concerns needs to be a priority in any of the Agency’s system
modernization efforts.

CONCLUSION AND RECOMMENDATIONS
SSA does not have a strategic plan to convert its legacy application programs to a more
modernized programming language. Also, SSA’s human capital plan does not
adequately provide for continuity of trained COBOL programmers. The Agency has
developed an approach to gradually reduce its reliance on COBOL for its core
processing of program transactions, such as retirement and disability claims. However,
we could not determine whether this approach has resulted in any efficiencies or cost
savings. We believe the Agency’s approach has been tactical, rather than strategic,
and more needs to be done to develop a strategic roadmap for modernizing its legacy
applications.

In an environment in which workloads are growing and budgets are constrained, a long-
term roadmap to modernize SSA’s legacy applications is needed to address
modernization needs, set accountability standards, and position the Agency to meet
future service delivery challenges. We believe such planning would assist SSA in using


6
 SSA has adopted Java as a standard for new development projects. Java is a programming language
used especially to create interactive applications running over the Internet.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                      ii
its resources more effectively and efficiently and meeting projected service delivery
demands.

We recommend that SSA:

   Develop a comprehensive, long-term strategic plan to modernize SSA’s legacy
    applications. This plan should

     include a target timeframe and estimated resources to modernize SSA’s existing
      environment;
     include an in-depth analysis of projected service delivery demands and how new
      approaches and technology can promote greater productivity while meeting
      customer expectations for service;
     position the Agency to maximize the effectiveness and cost-efficiency of its
      systems over the long-term; and
     be reevaluated over time and revised as necessary.

   Ensure its human capital plan addresses the loss of COBOL programmers and
    identifies how to maintain COBOL expertise and institutional knowledge transfers to
    new programmers.

AGENCY COMMENTS
SSA agreed with our first recommendation. However, the Agency disagreed with our
second recommendation, stating it already conducts thorough workforce planning. SSA
further stated that when, and if, COBOL programming skills appear in its analyses as a
legitimate risk, it will articulate appropriate remediation in its Human Capital Plan. The
full text of the Agency’s comments is included in Appendix D.

OIG RESPONSE
The Agency’s COBOL applications process SSA’s core workloads and have increased
in complexity over time. Although SSA stated it does not project any shortfalls in
COBOL skills, we reiterate our concern that legacy system programmer retirements and
insufficient system documentation will increase the Agency’s mission risk.
Consequently, SSA should ensure its human capital plan addresses the loss of COBOL
programmers and identifies how to maintain COBOL expertise and institutional
knowledge transfers to new programmers.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)                           iii
                                                                          Table of Contents
                                                                                                                     Page

INTRODUCTION .....................................................................................................1

RESULTS OF REVIEW ..........................................................................................6

The Social Security Administration’s Current Approach to Modernizing Its
Applications .............................................................................................................7

Factors the Social Security Administration Needs to Consider as it
Develops a Systems Modernization Roadmap ........................................................ 9

         Projected Future Service Delivery Demands .............................................. 10

         Growth of Information Technology and Maintenance Costs ....................... 10

         Loss of Institutional Legacy Programming Knowledge ............................... 12

         Lack of Integrated Business Processes ...................................................... 14

         Outdated User Interfaces ........................................................................... 15

The Social Security Administration Does Not Have a Strategic Plan to
Convert Its Legacy Application Programs to a More Modernized
Programming Language ........................................................................................ 15

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 18

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Who Uses Common Business Oriented Language?

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




SSA’s Software Modernization and Use of COBOL (A-14-11-11132)
                                                                          Introduction
OBJECTIVE
The objective of our audit was to determine whether the Social Security Administration
(SSA) has a strategic plan to convert its legacy application programs to a more
modernized programming language. We define a strategic plan as a document that
explains how the Agency’s information technology (IT) modernization efforts will include
a conversion from its legacy application programs to a more modernized programming
language.

BACKGROUND
The need for long-term IT planning has been a major concern for SSA for a number of
years. In 1982, SSA announced its Systems Modernization Plan (SMP)1 to restructure
and extensively upgrade its data-handling systems. The Agency told Congress that,
without this major upgrade, there might be serious disruption of its services, which are
essential to the welfare of millions of Americans. At the time, the SMP was one of the
most expensive civilian information projects ever undertaken.

SSA’s IT environment includes hundreds of applications and an array of technologies.
While the Agency has increased its use of more modern programming languages in its
applications, it relies on legacy applications programmed with Common Business
Oriented Language (COBOL) to process its core workloads, such as retirement and
disability claims.

Introduced in 1959, COBOL became the first widely used, high-level programming
language for business applications. According to a Gartner Consulting assessment,
SSA’s COBOL applications have enabled the Agency to support large transaction
volumes and meet complex regulatory, benefit, and reporting environments.2 As of
June 2010, SSA had over 60 million lines of COBOL code.

DIVERGENT VIEWS OF COBOL

In a 2007 report,3 the National Research Council of the National Academies stated that
newer programming languages offered greater capabilities than COBOL. The report

1
  In 1982, SSA announced a 5-year plan to modernize its information systems. The SMP was a
multimillion-dollar response to serious problems that had developed during the 1970s and that repeatedly
threatened to disrupt SSA’s service delivery operations.
2
 Gartner Consulting, Social Security Administration, Strategic Role of COBOL: Executive Briefing,
August 1, 2002.
3
 National Research Council of the National Academies, Social Security Administration Electronic Service
Provision, A Strategic Assessment, August 2007.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                          1
also concluded that applications written in COBOL are more cumbersome to maintain.4
Moreover, a 2009 Social Security Advisory Board (SSAB) report5 stated that the
computer industry generally viewed COBOL as obsolete, and the language lacked
industry support. Additionally, Congress has expressed concern over SSA’s use of
COBOL and the length of time the Agency requires to replace it.6

On the other hand, other reports have indicated that COBOL remains in widespread
use. A November 2008 Datamonitor white paper7 reported that 75 percent of business
data and 90 percent of financial transactions are processed in COBOL. Moreover, a
Harris Interactive May 20098 survey found that the average American relies on COBOL
at least 13 times a day for such activities as cellular telephone calls, credit card
transactions, and travel reservations. Moreover, IT executives from six of the largest
insurance and financial organizations stated COBOL remains in use in their industries.
For more information on COBOL’s use in the public and private sectors, see
Appendix B.

ASSESSMENT OF PRIOR MODERNIZATION EFFORTS

Prior Congressional Concern on Modernization Efforts

As previously mentioned, in 1982, SSA announced its SMP to restructure and
extensively upgrade its IT systems. In 1986, the Office of Technology Assessment
(OTA)9 issued a special report, The Social Security Administration and Information
Technology. The report concluded that although SSA had made significant progress
toward achieving the goals of its SMP in many areas, the Agency had fallen behind in
other areas. The OTA stated,
          . . . the greatest management failure at SSA was lack of planning and advanced
          development. Professional competence in computer technology was scarce and
          had to be devoted to solving immediate operational problems; the budget did not
          provide adequate resources for long-term systems development; top-level executive
          officers, who were not technologically sophisticated, did not insist on its importance;
          and political decisionmakers did not want to encourage demands.

4
    Id.
5
    SSAB, Bridging the Gap: Improving SSA’s Public Service Through Technology, April 2009.
6
 Clearing the Disability Claims Backlogs: The Social Security Administration’s Progress and New
Challenges Arising from the Recession: Hearing Before House Committee on Ways and Means
(Subcommittee on Social Security), 111th Cong. 111-38 (2009) (statement by Congressman
Sam Johnson).
7
    Datamonitor, COBOL – Continuing to Drive Value in the 21st Century, November 2008.
8
    The survey was commissioned by Micro Focus and conducted by Harris Interactive.
9
  The Technology Assessment Act of 1972, Public Law 92-484, October 13, 1972, established the OTA
for the Congress as an aid in the identification and consideration of existing and probable impacts of
technological application; to amend the National Science Foundation Act of 1950; and for other purposes.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                          2
Previous Studies on COBOL Modernization Efforts

SSA commissioned studies to assess the viability of COBOL to support its critical
systems. In August 2002, Gartner Consulting stated that while COBOL was not a dead
or dying language, newer programming languages enabled easier modifications.10
Gartner also concluded that newer technology performs best with newer programming
languages.11 Gartner further noted challenges to supporting COBOL in the future and
recommended that the Agency restructure its COBOL applications to better support
future systems development.12

In February 2005, Lockheed Martin (LM) recommended that the Agency position itself
for a COBOL migration and develop an assessment/migration plan.13 LM estimated it
would take 10 to 15 years and significant re-engineering to develop SSA’s COBOL
applications in another programming language.14

GUIDANCE FOR STRATEGIC PLANNING

SSAB Recommendation

In April 2009, SSAB recommended that the Agency develop a comprehensive systems
modernization plan and a strategic vision beyond 2020.15 A March 2011 SSAB report
stated that transforming the Agency’s current systems infrastructure into a modern
technology platform required a more aggressive and strategic systems modernization
plan.16 The report also stated that the lack of a longer range vision results in planning
that is piecemeal, crisis-directed, and ultimately more costly.17 Furthermore, the Future
Systems Technology Advisory Panel (FSTAP) recommended that SSA consider
developing a comprehensive Agency-wide strategic systems development roadmap,
including a high-level view of a realistic future state and a plan to achieve this vision.18




10
     See Footnote 2.
11
     Id.
12
     Id.
13
     LM, Social Security Administration, COBOL Strategic Fit Analysis, February 18, 2005.
14
     Id.
15
     See Footnote 5.
16
     SSAB, A Vision of the Future for the Social Security Administration, March 2011.
17
     Id.
18
     FSTAP, Legacy Systems Conversion Report, May 2010.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                  3
Federal Guidance

Office of Management and Budget (OMB) Circular A-130 requires that Federal agencies
establish and maintain a capital planning and investment control process that effectively
and efficiently links mission needs, information, and IT.19 The process requires a
strategic plan to address comprehensive agency information resources management
(IRM).20 Federal agencies must develop, maintain, and facilitate the implementation of
a sound, secure, and integrated framework to evolve or maintain existing IT and acquire
new IT to achieve the agency’s strategic and IRM goals.21 Specifically, OMB
Circular A-130 requires that agencies use or create an enterprise architecture (EA)
framework to guide strategic IRM planning.22

An EA focuses on agency strategy, program performance improvements, and IT
investments.23 Agencies are expected to use the EA to drive performance
improvements to save money and avoid cost through collaboration, reuse, productivity
enhancements, and elimination of redundancy.24 The EA must

      describe the agency’s current and target architectures;
      provide a strategy to support the agency’s current state; and
      act as a roadmap for transition to its target environment.25

Although there is no specific Federal guidance requiring that agencies modernize their
legacy applications, IT modernization is part of the EA process.26 The Chief Information
Officer (CIO) Council’s guide on EA states, “The enterprise life cycle is the dynamic,
iterative process of changing the enterprise over time by incorporating new business
processes, new technology, and new capabilities, as well as maintenance and
disposition of existing elements of the enterprise.”27 The EA, when coupled with
feedback from oversight authorities, such as Congress and the Advisory board,


19
  OMB Circular A-130, Transmittal Memorandum #4, Management of Federal Information Resources,
8.b (1) (November 28, 2000).
20
     Id at 8.b (1)(a).
21
     The Clinger-Cohen Act of 1996, Pub. L. No. 104-106, §§ 5125(b)(2) and (d), 40 U.S.C. § 11315(b)(2).
22
     OMB, A-130, supra at 8.b (2)(b).
23
  OMB, Improving Agency Performance Using Information and Information Technology (Enterprise
Architecture Assessment Framework v3.1), June 2009, p. 4.
24
     Id at p. 1.
25
     OMB, A-130, supra at 8.b (2)(a).
26
     CIO Council, A Practical Guide to Federal Enterprise Architecture, February 2001.
27
     Id at p. 8.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                              4
provides a framework for the expected level of due diligence that should be given to IT
planning.

RELEVANCE TO CUSTOMER SERVICE

SSA’s November 2010 Retirement Wave Report28 states that the Agency faces many
daunting challenges. A surge in workloads due to the recession has driven an extra
1 million economically distressed workers and families to turn to SSA for help.
Additionally, American baby boomers are aging and filing a flood of retirement and
disability claims. Moreover, 23.4 percent of SSA’s employees is eligible to retire. SSA
has primarily administered its services to the public through face-to-face or telephone
contact. In FY 2010, SSA received approximately 45 million visitors in its field offices
and handled almost 68 million transactions via the national 800-number.29 We believe
that without proper long-term IT modernization planning, the Agency may incur a
serious disruption of its services, which are essential to the welfare of millions of
Americans.

SCOPE AND METHODOLOGY
We reviewed SSA’s responses to our inquiries about its application modernization
efforts, IRM Strategic Plan,30 and EA Transition Strategy.31 We also researched
Federal requirements for strategic planning32 and COBOL’s use by other Federal
agencies and large companies with business processes similar to SSA’s. Further, we
reviewed various third-party assessments related to SSA’s COBOL and IT
modernization. For additional scope and methodology, see Appendix C.




28
 SSA, Social Security Administration Mission Critical Occupation Fiscal Years 2010-2019, Retirement
Wave Report, November 2010.
29
     SSA, SSA’s FY 2010 Performance and Accountability Report, p. 12.
30
     SSA, Information Resources Management Strategic Plan, Fiscal Year 2007.
31
     SSA, Enterprise Architecture Transition Strategy for 2011 Through 2016.
32
     See the above section, Guidance for Strategic Planning.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                         5
                                                        Results of Review
Our review has determined that SSA does not have a strategic plan to convert its legacy
application programs to a more modernized programming language. Nonetheless, the
Agency has developed an approach to gradually reduce its reliance on COBOL for its
core processing of program transactions, such as retirement and disability claims.
Although there is no specific Federal requirement for agencies to modernize their
legacy applications, there is Federal guidance that requires that agencies include IT
modernization as part of an agency’s EA process. We believe more needs to be done
to develop a documented, comprehensive roadmap to modernize the Agency’s legacy
applications, including a target schedule and resource estimates.

While the Agency has moved forward in modernizing its IT environment,33 several
factors limit the Agency’s ability to operate efficiently and improve service delivery. At a
minimum, SSA should address the following factors in its modernization roadmap:
(1) projected future service delivery demands; (2) growth of IT and maintenance costs;
(3) loss of institutional legacy programming knowledge; (4) lack of integrated business
processes; and (5) outdated user interfaces. Although these factors are not unique to
COBOL, SSA relies on COBOL applications to deliver its core services. Therefore, the
Agency’s use of COBOL impacts its current system environment and its system
modernization path.

SSA data indicate that during the past decade, the Agency’s annual IT spending has
increased from $14 to $22 per beneficiary. In addition, total system maintenance
costs34 increased in 2008 constant dollars from $89 million in FY 2008 to $104 million in
FY 2010 (an increase of nearly 17 percent). Based on current trends─without proper IT
strategy─the costs of resources required to maintain SSA’s IT operations will likely
continue increasing.

Although SSA has indicated that legacy application modernization will ultimately reduce
operating costs and improve service delivery, we could not determine whether the
Agency’s modernization approach was achieving the intended efficiencies. According
to a former senior Agency official, SSA’s level of funding will not allow the Agency to
undertake the major modernizations necessary to deliver robust services via telephone
calls, office visits, and the Internet.35




33
  SSA has adopted Java as a standard for new development projects. Java is a programming language
used especially to create interactive applications running over the Internet.
34
  The Agency defined maintenance as those activities required to keep a software and/or hardware
system operational after implementation.
35
  National Council of Social Security Management Associations (NCSSMA), Frontline, Issue 32,
June 2010, p. 7.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                       6
We note that Agency management expressed concerns about the emphasis of COBOL
in the body of this report and the lack of emphasis on COBOL in the conclusion and
recommendations. As previously stated, COBOL plays an integral part of the Agency’s
current systems environment. Since the report reflects the current environment, it
inherently references COBOL since COBOL provides the backbone for data processing
at SSA. We acknowledge the concerns we raise are not unique to COBOL, but
addressing these concerns needs to be a priority in any of the Agency’s system
modernization efforts.

SSA’S CURRENT APPROACH TO MODERNIZING ITS APPLICATIONS
The Agency’s approach for modernizing its applications consists of four major
features.36

    SSA has chosen a gradual and opportunistic approach to balance modernization
     with other business needs. Each year, the Agency prioritizes its IT projects and
     directs new software development based on available resources. SSA stated that
     as this planning process directs new application development, it will use more
     modern languages. For FYs 2011 through 2015, SSA has identified 14 COBOL
     modernization projects, including the Disability Case Processing and Cost Analysis
     Systems.37 The Agency’s budget, business priorities, and changing legislation affect
     the speed and focus of SSA’s IT modernization efforts.

    SSA has adopted Java as a standard for new development projects. During the last
     decade, SSA has increased its use of Java to build new applications and modernize
     core COBOL applications with new interfaces, integration points, and business
     processes. Figure 1 shows that while 439 of SSA’s applications contain COBOL,
     186 applications contain Java (86 of those 186 applications include both COBOL
     and Java in the same application).




36
  We determined SSA’s application modernization approach through the Agency’s responses to our
inquiries, including the SSA document provided by the Office of Systems on April 5, 2011, Modernizing
SSA’s Programmatic Application Portfolio & the Associated Technologies.
37
   The Disability Case Processing System is an SSA initiative to build a common system that all State and
Federal components can use to process disability determinations. SSA’s Cost Analysis System is used to
allocate (1) administrative costs to SSA-administered Trust and general fund programs and
(2) reimbursable work SSA performed for outside organizations.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                           7
     Figure 1: Number of SSA COBOL and Java Applications as of November 2011

                                             COBOL
                                                          Java

                                               353     86    100




       According to Agency officials, Java represents an increasingly larger percentage of
       its overall code base, and they plan to use Java opportunistically to build new core
       online applications and reduce use of COBOL. 38 However, the Agency plans to use
       COBOL for batch processing until Java or other technologies prove capable of
       performing the task with the same reliability, scalability, and throughput. 39 SSA
       stated that COBOL will continue to be a valuable technology for the foreseeable
       future.

      SSA does not perform straight conversions of COBOL application code to a more
       modern programming language. The Agency stated that such conversions would
       carry over the same processes as the original code, including any business process
       inefficiencies and programming challenges. Therefore, SSA stated it transitions into
       Java as the business need arises to redevelop COBOL applications. For example,
       the Agency determined it could improve policy compliance by redeveloping its
       enumeration40 application. By building the new application using mostly Java code,
       SSA not only addressed policy compliance but modernized the application’s
       interface from a COBOL-based “green screen”41 to a more familiar and easier-to-use
       Web-based interface.

      SSA uses Application Portfolio Management (APM) to determine the health of its
       applications. SSA’s APM process gathers data about Agency-developed
       applications, including programming languages and release frequencies. SSA
       stated that based on these data, the Agency assesses its application portfolio
       annually and uses the assessment for its IT planning. For FY 2012, the Deputy
       Commissioner for Systems identified four priority projects based on the APM
       process; one of these projects relates to COBOL modernization.


38
 Forrester Consulting, Assessment of the Social Security Administration’s Use of COBOL and
Mainframes, February 2011, p. 11.
39
     Id.
40
  Enumeration refers to the assignment of original Social Security numbers and the issuance of
replacement cards to those persons who request and are entitled to receive them.
41
     “Green screen” refers to the display of green characters on a dark background.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                    8
The Agency also indicated that it has developed a service-oriented architecture to reuse
existing software rather than recreate it. According to the Federal Chief Information
Officers Council, adoption of a service-oriented architecture will improve Government
responsiveness, simplify service delivery, and increase efficiency.42

During our audit period, Forrester Consulting completed an SSA-commissioned
assessment of the Agency’s use of COBOL.43 Forrester found that large organizations
with workload characteristics similar to SSA had no plans to eliminate their use of
COBOL.44 Furthermore, these organizations indicated that they have been able to
enhance their use of COBOL systems by using Java in conjunction with them.
However, Forrester recommended that SSA take an evolutionary approach to
modernization by replacing COBOL applications that no longer meet its business needs.
The report also recommended that the Agency use Java for modern workloads like
Internet applications but continue using COBOL for its high-volume core processing of
transactions until Java’s ability proves capable. It should be noted that SSA’s
modernization approach is consistent with Forrester’s recommendations.

Some factors related to the Agency’s legacy applications impact SSA’s ability to operate
efficiently and improve service delivery. We discuss these factors in the following
section.

FACTORS SSA NEEDS TO CONSIDER AS IT DEVELOPS A SYSTEMS
MODERNIZATION ROADMAP
SSA should address the following issues as it develops a plan to modernize its systems,
including its legacy applications.

     Projected future service delivery demands
     Growth of IT and maintenance costs
     Loss of institutional legacy programming knowledge
     Lack of integrated business processes
     Outdated interfaces




42
  Enabling the Mission, A Practical Guide to Federal Service Oriented Architecture, Version 1.1,
June 30, 2008, at pp. vi through vii.
43
     See Footnote 38.
44
  We also found this to be the case during our interviews with Fortune 500 insurance companies. See
Appendix B.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                         9
PROJECTED FUTURE SERVICE DELIVERY DEMANDS

On April 27, 2011, the President issued an Executive Order45 requiring that Federal
agencies develop “. . .a Customer Service Plan to address how the agency will provide
services in a manner that seeks to streamline service delivery and improve the
experience of its customers.”46 Such a plan must be a roadmap that ensures the
Agency is technologically and structurally prepared to operate its programs in the future
and must include a timeline and performance metrics. Because SSA’s workload is tied
to age-based benefits and the anticipated retirement of an increasing number of “baby
boomers” is relatively predictable, SSA needs to plan for meeting projected increased
service delivery demands with emerging technologies and automation now.

GROWTH OF IT AND MAINTENANCE COSTS

SSA’s annual IT spending has increased in 2001 constant dollars from $14 to $22 per
beneficiary since 2001, as shown in Figure 2.47 Similarly, the Agency’s annual IT
spending as a percentage of benefit outlays has also risen, as shown in Figure 3.

           Figure 2: SSA's Annual IT                      Figure 3: SSA's Annual IT
          Spending per Beneficiary in                    Spending as a Percentage of
             2001 Constant Dollars                             Benefit Outlays
                                                   0.24%
 $24
                                                   0.22%
 $22
                                                   0.20%
 $20
 $18                                               0.18%

 $16                                               0.16%
 $14                                               0.14%
 $12                                               0.12%




45
     Executive Order 13571, Streamlining Service Delivery and Improving Customer Service, 76 FR 24339.
46
  OMB, Implementing Executive Order 13571 on Streamlining Service Delivery and Improving Customer
Service, M-11-24, June 13, 2011.
47
  IT spending is reported by FY, while the number of beneficiaries is reported by calendar year. Our
analysis included Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries as well as
Supplemental Security Income (SSI) recipients. The OASDI program provides benefits to qualified retired
and disabled workers and their dependents, as well as survivors of insured workers. Social Security Act
§ 201 et seq., 42 U.S.C. § 401 et seq. The SSI program provides income to financially needy individuals
who are aged, blind, or disabled. Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                       10
SSA’s IT Vision states that technology has been the key to providing good service
economically.48 The Agency provided data that indicated its total system maintenance
costs49 increased in 2008 constant dollars from $89 million in FY 2008 to $104 million in
FY 2010, an increase of nearly 17 percent. SSA staff stated the Agency is pursuing IT
projects to drive efficiencies and reduce costs, and that without such projects, the
resources required to maintain SSA’s IT operations would continue increasing.
However, SSA provided no documentation that its current modernization approach
created any additional efficiencies or stabilized its service delivery costs. Nor could
SSA provide an allocation between the cost to maintain its legacy systems and its total
IT maintenance cost. Without this information, we could not determine whether SSA’s
current investments in IT infrastructure created any additional efficiencies or reduced
the cost of operations.

A senior SSA official stated in a June 2010 NCSSMA publication that maintenance and
modification costs of older systems are expensive and consume a disproportionate
share of SSA’s annual IT expenditure.50 Furthermore, Gartner indicated that because
COBOL programs are developed to perform one long, complex task efficiently, they are
difficult to modify and update.51

In the past, we have stated that “. . . information systems are a key factor in the
Agency’s ability to carry out its initiatives. As such, the planning, management, and
oversight of IT development has become increasingly important. In lean times,
resources must be directed to projects that yield optimal efficiency and effectiveness.”52

Further, we have expressed concerns over SSA’s ability to determine the return on
investment for its IT projects. For example, as part of the Agency’s IT planning process,
SSA typically estimates the potential number of full-time equivalent (FTE) positions and
related dollar savings that will result by implementing IT projects. In 2008, we reported
that the projected dollar savings for SSA’s IT projects were significant—ranging from
$10 to $20 billion over a 7-year period.53 However, we noted that these estimates may
not have been realistic and did not appear to reconcile with SSA’s annual productivity
statistics.54 Moreover, we reported that the Agency did not determine whether its major
IT projects had delivered overall functionality and cost savings after implementation, as


48
     SSA, Information Technology Vision, 2009-2014, p. 3.
49
     See Footnote 34.
50
     NCSSMA, Frontline, Issue 32, June 2010, p. 7.
51
     See Footnote 2.
52
  SSA OIG, Congressional Response Report: Opportunities and Challenges for the Social Security
Administration (A-08-09-29152), April 2009.
53
     Id.
54
     Id.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                    11
required by OMB.55 The report noted that SSA needed to coordinate internal efforts to
create a post-implementation review process.56 In a 2010 evaluation, we found that
despite the Agency’s efforts to develop a post-implementation review policy and
process, SSA needed to improve that process for IT projects to enable validation of
estimated benefits.57

Federal agencies must ensure they wisely invest their scarce resources.58 Given the
current budget trend, we believe SSA’s path seems unsustainable. Since the Agency’s
legacy applications are an integral part of its IT infrastructure, we believe the Agency
should consider the cost of maintaining its systems as part of developing a system
modernization roadmap to ensure maximum cost-efficiency as it moves forward.

LOSS OF INSTITUTIONAL LEGACY PROGRAMMING KNOWLEDGE

In addition to aging computer systems, SSA’s Strategic Plan, Fiscal Years 2008-2013,
lists the loss of institutional knowledge as one of the Agency’s greatest challenges.59
SSA’s systems have evolved over decades, and the age and complexity of these
systems increases the risk the Agency will lose institutional knowledge as it faces a
retirement wave.

While the risk of losing institutional knowledge exists regardless of whether the Agency
modernizes its legacy applications, a Gartner briefing60 indicated that, often, only a few
senior individuals understand the programming of COBOL systems. Even under the
best-case scenario, partial system documentation exists that may be difficult to
understand.61 This is particularly relevant at SSA, where the Agency stated that the
additive nature of business rules has led to increasingly complex systems with limited
documentation. For example, in an April 2011 report,62 we noted that, while key
personnel have informally maintained institutional knowledge for one application, lack of
complete, up-to-date documentation and established processes could affect continuity

55
  SSA OIG, Social Security Administration’s Management of Information Technology Projects
(A-14-07-17099), July 2007.
56
     Id.
57
 SSA OIG, Quick Response Evaluation: The Social Security Administration’s Post-Implementation
Review Process (A-14-10-30105), June 2010.
58
  OMB Circular Number A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital
Assets, July 2010, Section 300.3.
59
     SSA, Strategic Plan, Fiscal Years 2008-2013, p. 29.
60
     See Footnote 2.
61
     Id.
62
  SSA OIG, Cost Analysis System Background Report and Viability Assessment (A-15-10-20149),
April 2011.



SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                     12
of operations if these personnel leave SSA. We also found that during SSA’s
enumeration system redesign, the Agency identified lack of documentation as a
significant risk.

A March 2012 article63 expressed concerns similar to those identified at SSA. The
article indicated that while some of the world’s largest corporations still use COBOL,
COBOL programmers are aging and retiring. One IT executive from a top financial
institution expressed concern that as programmers retire, the company will lose the
deep understanding of business logic in its COBOL programs. The article further stated
that in some organizations, decades of changes have rendered COBOL programs so
complex that even experienced programmers cannot understand the code.

In response to our inquiries, the Office of Systems (OS) indicated that 55 of its COBOL
programmers64 separated from the Agency in FYs 2009 and 2010. During our review,
OS had 991 programmers with COBOL skills.65 OS projected the retirement of roughly
100 individuals each FY between 2011 and 2015; however, it could not project the
number of retirees with COBOL programming skills.

OS stated that it uses numerous methods to minimize the loss of institutional knowledge
as programmers retire. These methods include

     COBOL’s self-documenting nature;
     comments embedded in COBOL code;
     classroom and on-the-job training;
     mentoring programs;
     assigning multiple analysts and programmers for applications; and
     transferring application responsibility before an impending retirement.

SSA has methods in place to minimize the loss of institutional knowledge due to
COBOL programmer retirements. However, we are concerned that new SSA
programmers may lack the required expertise and understanding of complex business
rules used in SSA systems.66 SSA’s Strategic Human Capital Plan does not address
this issue of retiring COBOL programmers.67


63
   Robert L. Mitchell, Brain drain: Where COBOL systems go from here, COMPUTERWORLD, March 14,
2012. As of the date of this report, the article can be found at
http://www.computerworld.com/s/article/9225079/Brain_drain_Where_Cobol_systems_go_from_here_?ta
xonomyId=154&pageNumber=1.
64
     OS defined COBOL programmers as having skills across multiple disciplines, including COBOL.
65
     The Agency was unable to provide the number of COBOL programmers outside of OS.
66
     New SSA programmers may have had experience with SSA systems as contractors.
67
     SSA, Social Security Administration Strategic Human Capital Plan, FY 2009-2011.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                      13
Some reports have expressed concern regarding the availability of COBOL
programmers and training.68 In addition, two Fortune 500 CIOs with whom we spoke
noted a potential challenge in maintaining a COBOL workforce.69 We also searched the
course offerings of the top 10 computer science universities in the United States.70 We
identified only one university that offered a specific COBOL course.

However, our review also found that during the past several years, at least
50 universities and colleges in the United States have added COBOL to their
curriculums. International Business Machines (IBM) Corporation also offers several
COBOL classes, and SSA performs its own in-house COBOL training.

SSA stated, to date, it has been able to hire and train sufficient COBOL programmers to
meet their needs, and it does not project any shortfalls in COBOL skills. However, we
are concerned that legacy system programmer retirements and insufficient system
documentation will increase the Agency’s mission risk. Consequently, the Agency
should consider the loss of institutional legacy programming knowledge as it develops
its system modernization roadmap. Moreover, the Agency should ensure its human
capital plan addresses the loss of COBOL programmers and explains how to maintain
COBOL expertise and institutional knowledge transfer to new programmers.

LACK OF INTEGRATED BUSINESS PROCESSES

SSA’s Strategic Plan, Fiscal Years 2008-2013, states that the Agency’s field offices
cannot accommodate growing workloads and responsibilities unless the Agency
increases automation wherever possible and offers more modern service delivery
channels.71 The Plan also indicates that the Agency’s legacy computer systems will
make it increasingly difficult to implement new business processes and service delivery
models unless SSA makes necessary and immediate updates.72 The Agency stated

68
  National Research Council of the National Academies’ August 6, 2007 report, Social Security
Administration Electronic Service Provision, A Strategic Assessment, stated that it was “. . . unclear how
easy it will be to continue to find expertise in more-generic but increasingly obsolete software
technologies such as the COBOL programming language.” SSAB’s April 2009 report, Bridging the Gap:
Improving SSA’s Public Service Through Technology, stated, “SSA must rely on in-house training in
COBOL for its programmers because they are no longer able to learn these skills outside of the agency.”
69
  For our review, we inquired with 27 Fortune 500 banks and insurance companies regarding their
COBOL strategies. Of the 27, we received 4 responses. One CIO responded that it was difficult to find
graduates after the year 2000 who knew COBOL. Another CIO stated that the greatest challenge he saw
related to COBOL was finding individuals to write and maintain the code. We also received a response
that did not mention availability of COBOL training and a response indicating that the company did not
use COBOL. See Appendix B for more information.
70
   The top ten computer science universities in the United States are based on rankings by U.S. News &
World Report. As of the date of this report, this ranking was available at
http://www.usnews.com/education/worlds-best-universities-rankings/best-universities-computer-science.
71
     SSA, Strategic Plan, Fiscal Years 2008-2013, p. 33.
72
     Id.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                           14
that it has made those updates by implementing a service-oriented architecture and a
reusable framework that has allowed it to leverage legacy assets with modern
programming languages. In addition, SSA stated it has adopted a practice to migrate its
software to service-oriented architecture and plans to gradually eliminate existing stove-
piped applications.73

In May 2010, FSTAP reported that SSA’s systems covered a wide array of technologies
and programming languages, which includes COBOL. In many instances, these
systems did not integrate well, causing significant inefficiencies in business operations
and the operations and maintenance of the IT application environment.74 SSA stated
that these integration issues resulted from conscious investment decisions and that the
programming language used is not a factor in the lack of integration.

OUTDATED USER INTERFACES

SSA identified its use of green-screen interfaces as a limitation of the Agency’s legacy
applications. These user interfaces were predominantly used in the 1970s and 1980s.
However, users now find Web-based user interfaces more familiar and simpler to
navigate.75 SSA stated that conversion from green-screen user interfaces to Web-
based interfaces would result in a shorter learning curve for its employees.76 The
Agency faces a major retirement wave,77 and a shorter learning curve would assist SSA
as it trains new employees to manage future increasing workloads. The Agency plans
to modernize its green-screen applications with Web-based interfaces; however, the
target implementation date for the modernization of systems processing OASDI and SSI
is beyond the Agency’s IT Vision of 2014.

SSA DOES NOT HAVE A STRATEGIC PLAN TO CONVERT ITS
LEGACY APPLICATION PROGRAMS TO A MORE MODERNIZED
PROGRAMMING LANGUAGE
SSA’s responses to our inquiries state that it plans to modernize its legacy IT
applications as opportunities arise and funding allows. However, the Agency does not
have a strategic plan to modernize its legacy IT environment.




73
     SSA, Enterprise Architecture Transition Strategy for 2011 Through 2016, pp. 10 and 35.
74
     See Footnote 18.
75
     SSA, Information Technology Vision, 2009-2014, p. 17.
76
     Id at p. 18.
77
  SSA’s Strategic Plan, Fiscal Years 2008-2013, indicates that over 53 percent of SSA’s workforce will
be eligible to retire by FY 2017.



SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                            15
OMB requires that an agency’s EA describe its target architecture and act as a roadmap
to transition to its target environment.78 Furthermore, Federal guidance includes IT
modernization as part of an agency’s EA process.79 Although SSA’s EA transition
strategy80 identifies a target IT architecture, the strategy only extends to 2016. But, LM
estimated it would conservatively take 10 to 15 years to redevelop the Agency’s legacy
applications. Additionally, SSA’s IT Vision81 only extends to 2014. Neither document
discusses legacy application modernization in detail.

OMB requires that agencies effectively perform and integrate strategic planning and EA
to improve agency performance.82 SSA has indicated that legacy application
modernization will ultimately reduce operating costs and improve service delivery;
however, the Agency does not have a documented roadmap to modernize its legacy
applications. For example, SSA has not established a target schedule or estimated the
resources required to modernize its legacy applications. In addition, we (and others)
have reported that SSA generally lacked long-term strategic planning for IT systems
modernization.

     In April 2009, SSAB stated that the Agency should develop a comprehensive
      systems modernization plan and a strategic vision beyond 2020.83
     In a June 2009 report,84 we stated that SSA’s IT strategic planning documents were
      short-term tactical plans that generally did not provide a detailed description of how
      the Agency intends to address its future IT needs.
     In May 2010, FSTAP recommended that SSA consider developing a comprehensive
      Agency-wide strategic systems development roadmap, including a high-level view of
      a realistic future state and a plan to achieve this vision.85



78
     See Footnote 25.
79
     See Footnote 26.
80
     See Footnote 31.
81
     SSA, Information Technology Vision, 2009-2014.
82
  Agency EA programs are one of several practice areas that must be effectively executed to achieve
improvements in agency mission performance and other measurement areas. To achieve target
performance improvements, other practice areas - such as strategic planning, capital planning and
investment control, and program and project management - must be strong and fully integrated with an
agency EA practice. OMB, Improving Agency Performance Using Information and Information
Technology (Enterprise Architecture Assessment Framework v3.1), June 2009, p. 3.
83
     See Footnote 5.
84
  SSA OIG, Congressional Response Report: The Social Security Administration’s Information
Technology Strategic Planning (A-44-09-29120), June 2009.
85
     See Footnote 18.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                          16
     In March 2011, the SSAB published a future vision for SSA.86 This report states that
      transforming the Agency’s current systems infrastructure into a modern technology
      platform requires a more aggressive and strategic systems modernization plan. The
      report also stated that the lack of a longer range vision results in planning that is
      piecemeal, crisis-directed, and ultimately, more costly.

Furthermore, in December 2011, the Federal CIO at OMB expressed concern that
agencies often pay more over the long term to maintain old technology and encounter
sudden funding challenges when those systems can no longer operate. He also
indicated that the Government needs to find a way of reducing IT maintenance costs to
fund new development.87

Strategic planning for legacy systems modernization would asist SSA in properly
addressing the factors discussed above and ensure scarce Government resources are
used wisely and efficiently. Strategic planning helps organizations define an overall
mission and focus on objectives. Moreover, it provides better awareness of needs and
sets accountability standards. Finally, strategic planning allows organizations to look to
the future and take a proactive posture.

The Agency stated it has generally used a more gradual and evolutionary approach to
modernizing its systems. However, we believe that without developing a
comprehensive, long-term roadmap to modernize its legacy applications, SSA may not
be fully aware of the modernization scope and complexity, potentially resulting in a more
challenging and costly effort.

Although SSA has moved forward in modernizing its IT environment, its legacy
applications challenge the Agency’s ability to operate efficiently and improve service
delivery. We believe SSA will continue facing these challenges under its current
modernization approach. In June 2010, a senior SSA official indicated that the
Agency’s legacy systems hindered its ability to meet its service delivery challenges and
that developing a strategic IT roadmap was among its highest priorities.88 We believe
SSA should develop a roadmap to modernize its Iegacy applications, which should
     include a target timeframe and estimated resources to modernize SSA’s existing
      environment;
     include an in-depth analysis of projected service delivery demands and how new
      approaches and technology can promote greater productivity while meeting
      customer expectations for service;
     position the Agency to maximize the effectiveness and cost-efficiency of its systems
      over the long term; and
     be reevaluated over time and revised as necessary.
86
     See Footnote 16.
87
     Joseph Marks, Federal CIO Pushes for New Systems, Shared Services, Nextgov, December 16, 2011.
88
     NCSSMA, Frontline, Issue 32, June 2010, p. 7.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                    17
                                                 Conclusions and
                                                Recommendations
SSA does not have a strategic plan to convert its legacy application programs to a more
modernized programming language. Also, SSA’s human capital plan does not
adequately provide for continuity of trained COBOL programmers. The Agency has
developed an approach to gradually reduce its reliance on COBOL for its core
processing of program transactions, such as retirement and disability claims. However,
we could not determine whether this approach has resulted in any efficiencies or cost
savings. We believe that the Agency’s approach has been tactical, rather than
strategic, and that more needs to be done to develop a documented roadmap for
modernizing its legacy applications.

SSAB has stated that, despite the measured steps SSA has taken to move systems
development forward, a more aggressive and strategic system modernization plan is
essential to transform the Agency’s current systems infrastructure into a modern
technology platform.89 Additionally, FSTAP recommended that SSA consider
developing a comprehensive Agency-wide strategic systems development roadmap that
focused on the Agency’s customers and costs.90

SSA’s legacy applications are an integral part of its IT infrastructure and service
delivery. While the following factors are not unique to COBOL, the Agency should
consider, at a minimum (1) projected future service delivery demands; (2) growth of IT
and maintenance costs; (3) loss of institutional legacy programming knowledge; (4) lack
of integrated business processes; and (5) outdated user interfaces as it develops a
systems modernization roadmap that includes legacy applications programmed in
COBOL.

SSA has indicated that legacy application modernization will reduce operating costs and
improve service delivery. However, SSA provided no documentation that its current
modernization approach created additional efficiencies or stabilized its service delivery
costs. In an environment in which workloads are growing and budgets are constrained,
a long-term roadmap to modernize SSA’s legacy applications is needed to address
modernization needs, set accountability standards and position the Agency to meet
future service delivery challenges. We believe such planning would assist SSA to use
its resources more effectively and efficiently and meeting projected service delivery
demands.




89
     See Footnote 16.
90
     See Footnote 18.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                          18
Accordingly, we recommend that SSA:

1. Develop a comprehensive, long-term strategic plan to modernize SSA’s legacy
   applications. This plan should

   a. include a target timeframe and estimated resources to modernize SSA’s existing
      environment;
   b. include an in-depth analysis of projected service delivery demands and how new
      approaches and technology can promote greater productivity while meeting
      customer expectations for service;
   c. position the Agency to maximize the effectiveness and cost-efficiency of its
      systems over the long-term; and
   d. be reevaluated over time and revised as necessary.

2. Ensure its human capital plan addresses the loss of COBOL programmers and
   identifies how to maintain COBOL expertise and institutional knowledge transfers to
   new programmers.

AGENCY COMMENTS
SSA agreed with our first recommendation. However, the Agency disagreed with our
second recommendation, stating it already conducts very thorough workforce planning.
SSA further stated that when, and if, COBOL programming skills appear in its analyses
as a legitimate risk, it will articulate appropriate remediation in its Human Capital Plan.
The full text of the Agency’s comments is included in Appendix D.

OIG RESPONSE
The Agency’s COBOL applications process SSA’s core workloads and have increased
in complexity over time. Although SSA stated it does not project any shortfalls in
COBOL skills, we reiterate our concern that legacy system programmer retirements and
insufficient system documentation will increase the Agency’s mission risk.
Consequently, SSA should ensure its human capital plan addresses the loss of COBOL
programmers and identifies how to maintain COBOL expertise and institutional
knowledge transfers to new programmers.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)                             19
                                          Appendices




SSA's Software Modernization and Use of COBOL (A-14-11-11132)
                                                          Appendix A

Acronyms
APM      Application Portfolio Management
CIO      Chief Information Officer
COBOL    Common Business Oriented Language
EA       Enterprise Architecture
FSTAP    Future Systems Technology Advisory Panel
FY       Fiscal Year
IRM      Information Resources Management
IT       Information Technology
LM       Lockheed Martin
NCSSMA   National Council of Social Security Management Associations
OASDI    Old-Age, Survivors and Disability Insurance
OMB      Office of Management and Budget
OS       Office of Systems
OTA      Office of Technology Assessment
SMP      Systems Modernization Plan
SSA      Social Security Administration
SSAB     Social Security Advisory Board
SSI      Supplemental Security Income
VA       Department of Veterans Affairs
                                                                                    Appendix B

Who Uses Common Business Oriented
Language?
For our review, we examined the use of Common Business Oriented Language
(COBOL) by other Federal agencies and top private companies with business
processes similar to the Social Security Administration’s (SSA). The following sections
contain our results of how the private and public sectors use COBOL and their plans for
modernization of COBOL systems and applications.

PRIVATE SECTOR

In the private sector, the technology strategies of large insurance companies and banks
were most comparable to those of SSA.1 Therefore, we inquired with 27 Fortune
500 banks and insurance companies regarding their COBOL strategies. We received
responses from three information technology (IT) executives.2 In addition, we reviewed
other COBOL studies conducted by external entities. In a 2011 assessment, Forrester
Consulting3 interviewed an IT executive at three of the largest financial services firms in
North America. From these interviews, Forrester found that the financial services
industry was using COBOL. Our inquiries produced results similar to those of Forrester.
Following is a summary of how and why these companies continue to use COBOL.

Overall, the six IT executives contacted indicated that COBOL remained important to
their industries. For example, we spoke to a Vice President at a Fortune 500 insurance
company. He stated that applications at his insurance company run on COBOL.
Furthermore, we spoke to two Chief Information Officers with Fortune 500 companies.
One stated that the financial industry uses COBOL, and the other stated he expected
organizations to use COBOL for decades.

The IT executives provided several reasons to support their organizations’ continued
use of COBOL. First, they saw no alternative language capable of processing the
enormous volumes of online and batch transactions. Furthermore, they noted that a
replacement effort would take many years and significant resources. Finally, the IT
executives saw little business value for such a replacement effort. However, most of
the IT executives stated that their companies used programming languages other than
COBOL for new development.
1
  Like SSA, these firms had large volumes of batch and online transactions, strict data protection
requirements, and complex systems that had been refined over decades.
2
  All three responses were from insurance companies. We received a fourth response from a public
relations specialist indicating that her company does not use COBOL.
3
 Forrester Consulting, Assessment of the Social Security Administration’s Use of COBOL and
Mainframes, February 2011. SSA commissioned this study.


SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                        B-1
OTHER FEDERAL AGENCIES

While most Federal agencies used COBOL in some capacity, some agencies relied
heavily on COBOL for their IT systems, including the Departments of Veterans Affairs
(VA), Agriculture, and Energy.4 We found limited strategic planning efforts by Federal
agencies to modernize their COBOL legacy systems

In reviewing the IT plans of other Federal agencies, we found that most did not
specifically mention COBOL. However, the plans did discuss IT modernization. A
common theme was the reuse and leverage of code via service-oriented architecture.5
For example, the Department of Health and Human Services noted the reuse of existing
services and components will reduce software development time and cost.

The VA also plans to modernize its IT environment incrementally with an emphasis on
efficiency. VA’s Chief Information Officer indicated that its COBOL systems limit the
VA’s ability to use newer technology.




4
 Brian Robinson, COBOL Remains Old Standby at Agencies Despite Showing its Age, Federal Computer
Week, July 9, 2009.
5
 Planning documents for VA and the Departments of Health and Human Services, Education, and
Housing and Urban Development all indicated a strategy to move towards a service oriented architecture.



SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                      B-2
                                                                       Appendix C

Scope and Methodology
Our review focused on the use of the Common Business Oriented Language (COBOL)
in private industry, the Government, and the Social Security Administration (SSA). Our
scope included
   COBOL strategies and usage of Fortune 500 companies and other Federal
    agencies;
   SSA's COBOL and non-COBOL applications; and
   SSA's planning to convert its legacy application programs to a more modernized
    programming language.

To determine whether SSA has a strategic plan to convert its legacy application
programs to a more modernized programming language, we:

   Reviewed the following criteria:
       o   The Clinger-Cohen Act of 1996, as amended, 40 U.S.C. 11315;
       o   The Paperwork Reduction Act of 1995, as amended, 44 U.S.C. 3506;
       o   Office of Management and Budget (OMB) Circular A-130;
       o   OMB’s Improving Agency Performance Using Information and Information
           Technology (Enterprise Architecture Assessment Framework v3.1);
       o   OMB Circular A-11, Part 7, Planning, Budgeting, Acquisition, and
           Management of Capital Assets; and
       o   Chief Information Officer Council’s, A Practical Guide to Federal Enterprise
           Architecture, February 2001;
   Inquired with SSA’s Office of Systems.
   Interviewed staff from SSA’s Office of the Chief Information Officer.
   Obtained the system modernization strategies for SSA and other Federal agencies,
    related assessments and documentation.
   Reviewed assessments of SSA’s IT modernization.
   Identified risks and limitations of SSA’s system modernization approach.
   Analyzed SSA’s system modernization approach.
   Examined SSA’s proportion of system development resources to system
    maintenance resources.
   Assessed industry support for COBOL and determined how it is monitored by SSA.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)                             C-1
   Contacted Fortune 500 companies and other Government agencies regarding their
    COBOL strategies.
   Identified benefits of strategic planning.

We performed our audit at SSA Headquarters from January through August 2011. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)                       C-2
                                                                Appendix D

Agency Comments




SSA's Software Modernization and Use of COBOL (A-14-11-11132)
                                       SOCIAL SECURITY

MEMORANDUM


Date:   April 18, 2012                                                          Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “The Social Security Administration's Software
        Modernization and Use of Common Business Oriented Language” (A-14-11-11132)—
        INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        John Biles at (410) 965-3758.

        Attachment




        SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION'S SOFTWARE MODERNIZATION
AND USE OF COMMON BUSINESS ORIENTED LANGUAGE” (A-14-11-11132)


GENERAL COMMENTS

Thank you for revising the report based on the exit conference discussion and our supplemental
written comments. While you improved the accuracy of the report from previous drafts, the
primary problem remains: The body of the report is a collection of facts and anecdotes that do
not logically lead to the recommendations. In addition, aspects of the report are no longer
current.

The report contains fundamental flaws with respect to information technology (IT) costs. IT
spending has not grown substantially as a proportion of our administrative costs, and by common
benchmarks such as IT spending in comparison to revenue, we are extremely thrifty.

While our overall IT costs have grown, among many other advancements, we added a fully
provisioned second data center; accelerated improvement of our public Internet service channel;
made extensive advances in disability IT systems; and managed significant computing demand
growth while continuing to provide highly available and secure IT service to our employees and
the American public. We do an excellent job keeping our overall IT infrastructure safe, current,
and optimized.

The report implies our annual administrative expenses per Old Age Survivors and Disability
Insurance (OASDI) beneficiary should decrease as IT spending increases. This assumption
ignores the fact that IT spending is not the sole driver of administrative costs. Many other
factors unrelated to IT significantly affect our administrative expenses, including payroll costs,
workloads, energy, rent, security guards, and mission expansion.

We also disagree that administrative spending per OASDI beneficiary/Supplemental Security
Income recipient is a valid reflection of change in our administrative efficiency. Far more than
half of our administrative costs go to processing new claims and appeals—workloads that are not
proportional in volume to the number of beneficiaries and recipients. In addition, notable
amounts of our administrative costs go toward enumeration and annual wage reporting
processes. These workloads have no correlation whatsoever to the number of beneficiaries and
recipients.

It is clear that IT is a key driver of both our productivity and performance successes. Facts show
that our measured productivity grew substantially during the last decade, and we achieved
significant service delivery successes despite the growth in demand for our services.

Given the complexities of our mission, our high degree of automation, and the age of our
organization, we have a large and diverse catalog of software. Our overall strong systems
performance shows that our software works and reflects a significant, multi-decade investment
of taxpayer dollars. Our costs to maintain this software are remarkably flat.



SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                    D-2
We select new IT investments in software primarily because of business goals. When we
develop software to support business goals, we use that opportunity to modernize our systems.
On a separate track, we also review each of our software applications annually and make a
technical judgment about increasing risk of performance issues and the potential for failure. If
technical risk grows too high with any software application, we initiate a modernization project
(irrespective of business goals).

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Develop a comprehensive, long-term strategic plan to modernize SSA’s legacy applications.
This plan should
   a. include a target timeframe and estimated resources to modernize SSA’s existing
       environment;
   b. include an in-depth analysis of projected service delivery demands and how new
       approaches and technology can promote greater productivity while meeting customer
       expectations for service;
   c. position the Agency to maximize the effectiveness and cost-efficiency of its systems over
       the long-term; and
   d. be reevaluated over time and revised as necessary.

Response

We agree. This recommendation is consistent with current guidance from the Office of
Management and Budget regarding the Federal Enterprise Architecture framework. We also
expect to issue a current Information Resource Management Strategic Plan within the next
month.

Recommendation 2

Ensure its human capital plan addresses the loss of COBOL programmers and identifies how to
maintain COBOL expertise and institutional knowledge transfers to new programmers.

Response

We disagree. We already conduct very thorough workforce planning. When and if COBOL
programming skills appear in our analyses as a legitimate risk, then we will articulate appropriate
remediations in our Human Capital Plan.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)                                  D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Brian Karpe, Director, Information Technology Audit Division
   Grace Chi, Audit Manager

Acknowledgments
In addition to those named above:

   Michael Zimmerman, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-11-11132.




SSA's Software Modernization and Use of COBOL (A-14-11-11132)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                             Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
